No. 21-196

In the Supreme Court of the United States
SNH SE ASHLEY RIVER TENANT, LLC; FVE MANAGERS,
INC.; FIVE STAR SENIOR LIVING INC. F/K/A FIVE STAR
QUALITY CARE, INC.; SNH SE TENANT TRS, INC.;
DIVERSIFIED HEALTHCARE TRUST F/K/A SENIOR HOUSING
PROPERTIES TRUST; SNH TRS, INC.; AND CANDY D.
CURE,
Petitioners,
v.
THAYER W. ARREDONDO
AS PERSONAL REPRESENTATIVE OF THE ESTATE OF
HUBERT WHALEY, DECEASED,
Respondent.

CERTIFICATE OF SERVICE
I, Andrew J. Pincus, certify that on the 30th day of September, 2021, I caused
three copies of the Brief of Argentum and the American Seniors Housing Association
as Amici Curiae In Support of Petitioners to be served by mail on the following
counsel:
E. Joshua Rosenkranz
Thomas M. Bondy
Orrick, Herrington & Sutcliffe LLP
51 West 52nd Street
New York, NY 10019
(212) 506-5000
jrosenkranz@orrick.com
tbondy@orrick.com

C. Caleb Connor
Kenneth L. Connor
Connor & Connor, LLC
302 Park Avenue SE
Aiken, SC 29801
(803) 938-4730
caleb@theconnorfirm.com
ken@theconnorfirm.com

Counsel for Petitioners

Counsel for Respondent

I further certify that all parties required to be served have been served.

Dated: September 30, 2021
Andrew J. Pincus

Mayer Brown LLP
1999 K Street, N.W.
Washington, DC 20006-1101
(202) 263-3000
apincus@mayerbrown.com

